WAIVER

Supreme Court of the United States

No. 19-497
The Inclusive Communities Project, Inc. v. Lincoln Property Company, et al.
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
Q Please enter my appearance as Counsel of Record for all respondents.

(& There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Legacy Multifamily North Ill, L.L.C.
HLI White Rock, L.L.C.

 

t& Tama member of the Bar of the Supreme Court of the United States.

© Tam not presently a member of the Bar of this Court. Should a response be requested,

the response will be filed by a Bar member.
Signature Hoge Pt ae
Y's )i9

 

 

 

Date:
(Type or print) Name____Tonya M. Gray
O Mr. Ms. OMrs. O Miss
Firm. Hunton Andrews Kurth LLP
Address 1445 Ross Avenue, Suite 3700

 

City & State Dallas, Texas Zip 75202

Phone (214) 979-3000

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Michael M. Daniel
Daniel & Beshara, P.C.
3301 Elm Street
Dallas, TX 75226
(214) 939-9230

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http:/www.supremecourtus.gov. Have the Supreme Court docket number available.
